FEDERAL PUBLIC DEFENDER
EASTERN DISTRICT OF LOUISIANA
500 POYDRAS STREET, SUITE 318
HALE BOGGS FEDERAL BUILDING

NEW ORLEANS, LOUISIANA 70130
Claude J. Kelly
Federal Public Defender
Valerie Welz Jusselin
Samuel J. Scillitani
Jerrod Thompson-Hicks
Maura M. Doherty
Celia Rhoads
Samantha Kuhn
Warner Thompson
Assistant Federal Public Defenders

TOLL FREE
TELEPHONE
FAX

(800) 296-4046
(504) 589-7930
(504) 589-2556

October 14, 2020
The Honorable Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street, N.E.
Washington, D.C. 20543
Re:

Rodney Lavalais v. United States, No. 20-5489

Dear Mr. Harris:
I represent Petitioner Rodney Lavalais in the above-captioned case, which is currently pending
before this Court on a petition for a writ of certiorari. The respondent’s brief was filed on October
4, 2020. Pursuant to Rule 15.5, petitioner expressly waives the fourteen-day waiting period for
distribution of the case to the Court. I respectfully request that the Court distribute the case on its
next distribution date for in forma pauperis cases, which I understand to be October 15, 2020.
Thank you for your assistance.
Sincerely,
/s/ Celia C. Rhoads
CELIA C. RHOADS
Assistant Federal Public Defender
Counsel of Record for Petitioner Rodney Lavalais
cc: Jeffery Wall, Acting Solicitor General of the United States
United States Department of Justice
950 Pennsylvania Avenue, N.W., Room 5616
Washington, D.C. 20530-0001
(202) 514-2217
SupremeCtBriefs@usdoj.gov

